No.

JUAN LUIS RIVERA ARREOLA, PETITIONER
V.

UNITED

STATES

OF AMERICA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

APPENDIX

l. United States v. Juan Luis Rivera Arreola, 4: l 7crl 76(5) (E.D.Tx. February 26,

2020)
2. United States v. Juan Luis Rivera Arreola, 831 Fed. Appx. 690, 2020 WL
765848) (5th Cir. October 12, 2020)

District Court Judgment

Case 4:17-cr-00176-ALM-CAN

Document 222

Filed 02/26/20

Page 1 of 8 PagelD #: 1481

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS SHERMAN DIVISION

UNITED STATES OF AMERICA

§

JUDGMENT IN A CRIMINAL CASE

§
§

V.

§

Case Number: 4:17-CR-00176-ALM-CAN(S)
USM Number: 75694-279
Camille M Knight

§

Defe nd ant' s Attorney

§

JUAN LUIS RIVERA ARREOLA

§

THE DEFENDANT:

D

pleaded guilty to count(s)

D

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) wh ich was
accepted by the court

D
~

was found guilty on count(s) after a plea of not guilty

1 of the First Superseding Indictment

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

21 U.S.C. §846

02/ 14/201 8

Consp iracy to Possess w ith th e Inten t to Manufacture and
Distribute Metharnphetarnine

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

D

The defendant has been found not guilty on count(s)

~

All remaining Count(s) and Underlying Indictment

D is

~ are dismissed on the motion of the United States

Tt is ordered that the defendant must notify the United States attorney for thi s district within 30 days of any change of name,
residence, or mailing address until all fines , restitution , costs, and special assessments imposed by this judgment are full y paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

Februarv 25 2020
Date of Imposition o f Judgment

AMOS L. MAZZANT, III
UNITED STATES DISTRICT JUDGE
Name and Ti tl e of Judge

February 26, 2020
Date

Case 4:17-cr-00176-ALM-CAN

Document 222 Filed 02/26/20 Page 2 of 8 PagelD #: 1482
Judgment -- Page 2 of 8

AO 2458 (Rev. TXN 9/ 19) Judgment in a Cri min al Case

DEFENDANT:
CASE NUMBER:

JUAN LUIS RIVERA ARREOLA

4: l 7-CR-00176-ALM-CAN(S)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prison s to be imprisoned for a total term of:
360 months.
The court makes the following recommendations to the Bureau of Prisons: The Court recommends that Defendant be designated
to BOP in South Texas , if appropriate.

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for th is district:

D

D

at

D

as notified by the United States Marshal.

D

a.m.

D

p.m.

011

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D
D
D

before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
1 have executed this judgment as follows:

Defendant delivered on

- - - - - - - - - - - to

at _ _ _ _ _ _ _ _ _ _ _ _ _ , with a ce11ified copy of this judgment.

UN ITED STATES MARSHAL

By
DEPUTY UNITED ST A TES MARSHAL

Case 4:17-cr-00176-ALM-CAN

Document 222

Filed 02/26/20

Page 3 of 8 PagelD #: 1483
Judgment -- Page 3 of 8

AO 2458 (Rev. T)...'N 9/ 19) Judgment in a Criminal Case

DEFENDANT:

JUAN LUIS RIVERA ARREOLA

CASE NUMBER:

4: 17-CR-OO 176-ALM-CAN(S)

SUPERVISED RELEASE
Upon rel ease from imprisonment, the defendant shall be on supervised release for a term of: five (5) years.

MANDA TORY CONDITIONS
I.

You must not commit another federal , state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

D

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

D

You must make restitution in accordance with 18 U.S.C.
of restitution. (check if applicable)

5.

IZ)

You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

D

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. ~ 20901, et
seq .) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

D

You must participate in an approved program for domestic violence. (check if applicable)

~~

3663 and 3663A or any other statute authorizing a sentence

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 4:17-cr-00176-ALM-CAN

Document 222

Filed 02/26/20

Page 4 of 8 PagelD #: 1484

AO 2458 (Rev. TXN 9/ 19) Judgment in a Criminal Case

DEFENDANT:

JUAN LUIS RIVERA ARREOLA

CASE NUMBER:

4: l 7-CR-00176-ALM-CAN(S)

Judgment -- Page 4 of 8

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release , you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
I. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After in itially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
whe n you must report to the probation officer, and you must report to the probation officer as instructed.
3 . You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Tfyou plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. Tf notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer with in 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view .
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. lf you do not have full -time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. lf you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. lf notifying the probation officer at least I 0
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. lf you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. lf you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device , or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers) .
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk .
13 . You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S . probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov .

Defendant's Signature

Date

Case 4:17-c r-0017 6-ALM-CAN

Document 222

Filed 02/26/20

Pag e 5 of 8 PagelD #: 1485

AO 245B (Rev. TXN 9/ 19) Judg111ent in a Criminal Case

DEFENDANT:

JUAN LUIS RIVERA ARREOLA

CASE NUMBER:

4: 17-CR-OO 176-ALM-CAN(S)

Judg111ent -- Page 5 of 8

SPECIAL CONDITIONS OF SUPERVISION
As a condition of supervised release, immediately upon release from confinement, you must be
surrendered to a duly authorized immigration official for deportation proceedings in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 U.S.C. §1101, et seq . If ordered
deported, you must remain outside of the United States. In the event you are not deported, or for any reason reenter the country after having been deported , you must comply with all conditions of supervised release, to
include reporting to the nearest United States Probation Office within 72 hours of release by immigration
offic ials or re-entry into the country.
You must provide the probation officer with access to any requested financial information for purposes
of monitoring your efforts to obtain and maintain lawful employment.

Case 4: 17-cr-00176-ALM-CAN

Document 222 Fi led 02/26/20 Page 6 of 8 PagelD #: 1486

AO 245B (R ev. TXN 9/ 19) Judgment in a Crimi na l Case

Judgment -- Page 6 of 8

DEFENDANT:

JUAN LUIS RIVERA ARREOLA

CASE NUMBER:

4: l 7-CR-001 76-ALM-CAN(S)

CRIMINAL MONETARY PENALTIES

TOTALS

D
D

Assessment
$1 00.00

Restitution
S.00

Fine
$.00

AV AA Assessment*
$. 00

JVT A Assessment**
$ .00

The determin ation of restituti on is defened until
An Amended Judgment in a Criminal Case (A024 5C) w ill be e ntered
afte r such determin ati on .
The defendant must make restitution (i ncl udi ng communi ty restitution) to the fo ll owi ng payees in th e amount li sted below .
If the defe nd ant makes a parti al payme nt, each payee sha ll rece ive an approx imately proponio ned payment. However, pursuant to 18
U.S.C. § 3664(i), all no nfe deral victi ms must be pa id before the United States is paid.

D
D
D

Resti tuti on amount ordered pursuant to pl ea agree ment s;
The defendant must pay interest o n restitution and a fi ne of more than $2,5 00 , unl ess the restituti on or fin e is paid in full before
the fifteenth day after the date of the judgment, purs uant to 18 U.S.C. § 36 l 2(f) . A ll of the paym ent options o n th e schedu le of
paym ents page may be subject to penalti es for delinquency and defa ult, pursuant to 18 U .S.C. § 36 l 2(g).
The co urt determined that the defendant does not have th e abi lity to pay interest and it is ordered that:

D
D

th e in terest requirement is waived for the
the interest req uirement for the

D
D

fine

* Arny , V icky, and A nd y Chil d Po rn ogra phy Victim Ass ista nce Act of 20 18, Pub.
** Justice fo r Victim s of Traffickin g Act of 2015, Pub. L. No. 11 4-22
*** F ind ings fo r the tota l amo unt of losses are requi red unde r Chapte rs
September 13, 1994, but befo re Ap ril 23, 1996.

D
D

fine

restituti on
restitution is modifi ed as fo ll ows:

L. No. 115 -299.

I 09A, I I 0, I I OA, and I 13A of T it le 18 for offenses co mmitted on or after

Case 4:17-cr-00176-ALM-CAN

Document 222

Filed 02/26/20

Page 7 of 8 PagelD #: 1487

AO 245 B (Rev. TXN 9/ 19) Judgment in a Crimi nal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 8

JUAN LUIS RIVERA ARREOLA

4: l 7-CR-001 76-ALM-CAN(S)

SCHEDULE OF PAYMENTS
Hav ing assessed the defendant' s abili ty to pay, pay ment of the total cri min al monetary pena lti es is due as fo llows :

[ZI

Lump sum pay ments of$ 100.00 due imm ediately, balance due

D

not later th an

[ZI

in acco rdance

B

D

Pay ment to begi n immedi ate ly (may be combin ed w ith

C

D

Pay ment in equa l _ _

A

, or

D

C,

D

D,

D

E, or

D

C,

F below; or

D

D, o r

(e.g., weekly, monthly, quarterly) installments of $

_______ (e.g. , months or years), to commence
D

D

D

F be low); or

over a peri od of

(e.g., 30 or 60 day:.) aft er the date of th is j udgm ent; or

Pay ment in equal 20 (e.g., weekly, monthly, quarterly) installments of$ _ _ _ _ _ _ over a peri od of

_______ (e.g. , months or y ear:.), to commence _ __ _ (e.g. , 30 or 60 day:.) afte r re lease fro m imp ri sonmen t
to a term of supervision ; o r

E

D

Pay ment during th e term of supervised release w ill comm ence withi n _______ (e.g., 30 or 60 days) afte r re lease
fro m impri sonment. T he court will set the pay ment plan based on an assessm ent of th e defendant's abil ity to pay at th at
tim e; or

F

IZI

Speci al in structi ons regardi ng the payment of criminal monetary penalties:

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which
shall be due immediately. Said special assessm ent shall be paid to the Clerk, U.S. District Court.
Unless th e court has express ly o rde red o therwise, if this j udgme nt imposes imprison ment, pay ment of cri min al monetary penal ties is
due d uring impri sonment. A ll crimin a l monetary pena lties, except those pay ments made thro ug h the Federal Bureau of Pri sons'
Inmate F inancial Responsibil ity P rogra m, are made to the clerk of the court.
The defendant shall receive credit for all pay m ents prev io usly made toward any criminal mo netary pena lties imposed .
D

Jo int and Several
See above for D efendant a nd Co- Defendant Na mes and Case N umbers (including defendan t numbe,), Total Amo un t, Joint and
Several Amount, and corres pond ing payee, if appropriate.
D efend ant sha ll rece ive credit o n hi s rest itution obl igation for recove ry from other defendants w ho contributed to the same
loss that gave ri se to defendant's resti tuti on o bli gation.

D
D
D

The defendant sha ll pay the cost of prosec ution.
T he defendant shall pay the fo ll ow ing co urt cost(s):
T he defendant sha ll forfe it the defendant 's interest in the fo llowi ng property to the U nited States :

Paymen ts shall be appli ed in th e fo llowing order: ( I ) assessme nt, (2) restitution prin ci pal, (3) restitution interest, (4) AVAA assess ment,
(5) fi ne prin cipal, (6) fin e interest, (7) co mmuni ty resti tuti on, (8) NT A Assessment, (9) penalti es, and ( I 0) costs, including cost of prosecution and
court costs.

Case 4:17-cr-00176-ALM-CAN

Document 222

Filed 02/26/20 Page 8 of 8 PagelD #: 1488

AO 245B (Rev . TXN 9/ 19) Judgment in a Criminal Case

DEFENDANT:

JUAN LUIS RIVERA ARREOLA

CASE NUMBER:

4: 17-CR-OO 176-ALM-CAN(S)

Judgment -- Page 8 of 8

DENIAL OF FEDERAL BENEFITS
(For Offenses Committed On or After November 18, 1988)

FO R DRUG TRAFFICKERS PURSUANT TO 21 U.S.C. § 862
IT TS ORDERED that th e defendant shall be:

D
D

in eligible for all federal benefits for a period of
ineligible for the following federal benefi ts for a period of

(specify benejit(s))

OR

D

Having determined that thi s is the defendant's third or subsequent conviction for di stribution of controlled substances, TT TS
ORDERED that the defendant shall be perm anently inelig ible for a ll federal benefits.

FOR DRUG POSSESSORS PURSUANT TO 21 U.S.C. § 862(b)

IZ]

IT TS ORDERED that the defendant sha ll:
be ineligible for all federal benefits for a period of 5 years .

D

be ineligible for the following federal benefits for a period of

(1pecifj; benefit(I))

D
D

successfully complete a drug testing and treatment program .
perform community service, as specified in the probation and superv ised release portion of thi s judgment.

TS FURTHER ORD ERED th at the defendant shall co mpl ete any drug treatment program and community service specified in
this judgment as a requirem ent for the re instatement of e ligibility for federa l benefits.

Pursuant to 21 U.S.C. § 862(d), this denial of federal benefits does not include any retirement, welfare, Social Security,
health, disability, veterans benefit, public housing, or other similar benefit, or any other benefit for which payments or
services are required for eligibility. The clerk is responsible for sending a copy of this page and the first page of this judgment
to:

U.S. Department of Justice, Office of Justice Programs, Washington, DC 20531

Fifth Circuit

United States v. Rivera Arreola, 831 Fed.Appx. 690 (2020)

jurisprudence stating that firearms are tools of the illegal

831 Fed.Appx. 690 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

UNITED STATES of

America, Plaintiff-Appellee,
V.

Juan Luis RIVERA ARREOLA,
also known as Juan Arreola,
Defendant-Appellant.
No. 20-40145

I
Summary Calendar
I
FILED October 12, 2020
Appeal from the United States District Court for the Eastern
District of Texas, USDC No. 4: l 7-CR-176-5

Attorneys and Law Firms
Stephan Edward Oestreicher, Jr., Ernest Gonzalez, Assistant
U.S. Attorney, Bradley Elliot Visosky, Assistant U.S .
Attorney, U.S. Attorney's Office, Eastern District of Texas,
Plano, TX, for Plaintiff-Appellee

narcotics trade and allowing district courts to consider that
fact when evaluating whether a coconspirator's possession
of a firearm was reasonably foreseeable for purposes of an
enhancement under U.S.S.G. § 2DI. l(b)(l).

Rivera Arreola challenges this court's jurisprudence stating
that firearms are tools of the trade in illegal narcotics activity.
One panel of this court may not overrule another panel's
decision without en bane reconsideration or a superseding
contrary Supreme Court decision . United States v. Lipscomb,
299 F.3d 303, 313 n.34 (5th Cir. 2002). Rivera Arreola
presents no superseding en bane decision from this court or
contrary Supreme Court decision in support of his argument.
Therefore, this court is bound by its prior jurisprudence. See
id.
A two-level increase m the offense level of a drugtrafficking defendant is warranted if a dangerous weapon
was possessed. *691 See § 20 I.I (b )(I) & comment.
(n.1 l(A)). Whether to apply § 2Dl.l(b)(l) is a factual
question reviewed for clear error. United States v. Zapatalara , 615 F.3d 388, 390 (5th Cir. 2010). "Nonetheless, we
examine de novo the district court's purely legal application
of the sentencing guidelines ." Id. (internal quotation marks
and citation omitted). Rivera Arreola is contesting both
the district court's factual finding that his coconspirator's
possession of a firearm was reasonably foreseeable to him
and whether the facts found by the district court are legally
sufficient to support the enhancement. Consequently, this
court reviews the district court's factual finding for clear
error and reviews de novo Rivera Arreola's challenge to the
application of the dangerous weapon enhancement based on
those facts. See id.

Donald Lee Bailey, Sherman, TX, for Defendant-Appellant

Juan Luis Rivera Arreola appeals the 360-month sentence
imposed following his conviction of conspiracy to possess
with intent to manufacture and distribute 500 grams or more
of a mixture or substance containing methamphetamine or
50 grams or more methamphetamine (actual). He argues that
the district court erred by applying a two-level enhancement
for the possession of a dangerous weapon when calculating

During an investigation into Rivera Arreola's drug activities,
he engaged in three multikilogram methamphetamine deals.
Two of those deals were with the same buyer, and the third
deal, which provided the basis for the dangerous weapon
enhancement, was with an unrelated buyer. The record
reflects that Rivera Arreola and his couriers on the third
deal were jointly involved in the sale of IO kilograms of
methamphetamine. Given the amount of drugs and cash
involved in the transaction and the facts that (I) Rivera
Arreola and his coconspirators were not familiar with the
buyer, (2) Rivera Arreola had lost a substantial amount of
drugs and cash in the two prior unrelated deals, and (3)
firearms are "tools of the trade" for people involved in illegal

his guidelines range. He urges this court to abandon its

narcotics activity, Rivera Arreola should have reasonably

Before King, Smith and Wilson, Circuit Judges.

Opinion
Per Curi am:*

WE<,TLAVV

Q'JL,'

i ...,

vc • r rm '1 ./'vo

K'

United States v. Rivera Arreola, 831 Fed.Appx. 690 (2020)

foreseen that at least one of his couriers would have a firearm

court did not err by determining that the application of the

during the drug deal. United States v. Aguilera-Zapata, 901
F.2d 1209, 1215 (5th Cir. 1990) (internal quotation marks and
citation omitted).

dangerous weapon enhancement was warranted under the
facts of the case. Zapata-Lara, 615 F.3d at 390; AguileraZapata, 901 F.2d at 1215- 16. Accordingly, the judgment of
the district court is AFFIRMED.

The district court's factual finding that Rivera Arreola should
have reasonably foreseen the possession of a firearm by a
coconspirator is not clearly erroneous. See Zapata-Lara, 615
F.3d at 390; Aguilera-Zapata, 90 I F.2d at 1215. The district

All Citations
83 1 Fed.Appx. 690 (Mem)

Footnotes

*

Pursuant to 5th Circuit Rule 4 7 .5, the court has determined that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5th Circuit Rule 47.5.4.

<9 2021 Thomson Reuters. No claim to original US
Government Works.

End of Document

W£:<iTLA'N

IC

